IN THE SUPREME COURT OF THE UNITED STATES

COWELS, MICHAEL, ET AL.
Petitioner
vs.

No:

19-0796

FBI, ET AL.
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
January 21, 2020
cc:

See Attached List

EZEKIEL L. HILL
GOODWIN PROCTER LLP
1900 N. STREET NW
WASHINGTON, DC 20036
ELLIOT M. WEINSTEIN
83 ATLANTIC AVENUE
BOSTON, MA 02110
DAVID J. APFEL
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210

